HHS/OIG-Audit--"Review of Administration for Children and Families Controls Over Contract Reporting and Contracts, (A-12-92-00032)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Administration for Children and Families Controls Over
Contract Reporting and Contracts," (A-12-92-00032)
December 22, 1992
Complete
Text of Report is available in PDF format (1.36 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Administration
for Children and Families (ACF) controls over contracts. The Office of Inspector
General is required to provide an annual report to Congress on: (1) the accuracy
and completeness of data provided to the Federal Procurement Data System (FPDS)
and (2) the Department's progress implementing controls over contracts for advisory
and assistance services (CAAS). The Department understated ACF's FY 1991 overall
new contracting activity of $18.3 million by $15.6 million in the FPDS. Of this
amount, ACF's use of $5.5 million in CAAS contract actions was understated by
$4.3 million in the FY 1991 FPDS data. Additionally, some CAAS contract files
did not have the documentation showing proper approval and justification.